                     U.S. DEPARTMENT OF ENERGY
                    OFFICE OF INSPECTOR GENERAL




                   AUDIT OF DEPARTMENT OF ENERGY
        MANAGEMENT AND OPERATING CONTRACTOR AVAILABLE FEES




The Office of Inspector General wants to make the
distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be
available electronically through the Internet five to seven
days after publication at the following alternative address:

             Department of Energy Headquarters Gopher
                         gopher.hr.doe.gov

          Department of Energy Headquarters Anonymous FTP
                        vm1.hqadmin.doe.gov

Department of Energy Human Resources and Administration Home
                            Page
             http://www.hr.doe.gov/refshelf.htm1

Your comments would be appreciated and can be provided on
the Customer Response Form attached to the report.

               This report can be obtained from the
                     U.S. Department of Energy
          Office of Scientific and Technical Information
                            P.O. Box 62
                    Oak Ridge, Tennessee 37831


Report Number: DOE/IG-0390
Capital Regional Audit Office
Germantown, Maryland 20874

Date of Issue:            May 8, 1996

United States Government
Department of Energy
memorandum

DATE:       May 8, 1996
REPLY TO ATTN     OF:   IG-1

SUBJECT:        INFORMATION: Report on "Audit of Department
                of Energy Management and Operating Contractor
                Available Fees"

TO:   The Secretary

BACKGROUND:

 In December 1995, the Office of Procurement and Assistance
 Management proposed changes to the method used to annually
 calculate and negotiate for-profit management and operating
 contractor available fees. The objective of the audit was
 to determine whether the Department's proposed change to
 the fee structure for determining management and operating
 contractor fees will be cost effective.

 DISCUSSION:

 In 1991, the Department, through the Accountability Rule,
 increased contractor fees as an incentive to improve
 contractor performance and accountability. This action
 coincided with the Department's stated objective of
 shifting more risk for the operation of its facilities to
 the managing contractors. In January 1994, the Office of
 Inspector General issued an audit report on the
 implementation of the Accountability Rule which concluded
 that the Department paid five contractors $23 million in
 increased fees with no conclusive evidence that this rule
 was meeting its objective. Furthermore, the report noted
 that the Department had not achieved any measurable
 benefits for its investment. The Department is crafting a
 new fee policy which may, depending upon how it is
 implemented and executed, increase fees above the amount
 provided through the Accountability Rule as an incentive to
 improve management and operating contractor performance.
 Prudent business practice dictates that any change, which
 increases costs to the Department, should be analyzed to
 determine if the benefits justify the cost. The
 Department's proposed revisions to its Acquisition
 Regulation could significantly increase contractors'
 available fees, by as much as $218 million annually. This
 change, however, was not subjected to a rigorous analysis
 to determine the cost and benefits of the latest
 initiative.

 A cost-benefit analysis would identify the risks assumed by
 the contractors, identify any other quantitative or
 qualitative benefits that would accrue to the Department as
 a result of the new fee policy, and would enable the
 Department to establish a benchmark and expectation level
 for measuring the effectiveness of performance-based
 contracting. If appropriate benchmarks are not
 established, the Department may be providing the management
 and operating contractors with substantial increases in
 fees with no method in place to measure actual benefits.
An exit conference was held with the Office of Procurement
and Assistance Management on April 18, 1996, to discuss the
results of the audit. Following this meeting, the
Department elected to transmit the notice of proposed
rulemaking to the Office of Management and Budget without
the fee policy revisions. In subsequent comments,
management indicated that the fee policy was still in an
evolutionary state. Although management stated that it
would review the final proposed rulemaking to ensure that
its objectives were met, it did not commit to doing the
cost-benefit analysis recommended in the audit report.


                          (Signed)

                     John C. Layton
                     Inspector General

 Attachment

 cc:    Deputy Secretary
          Acting Under Secretary

                  AUDIT OF DEPARTMENT OF ENERGY
       MANAGEMENT AND OPERATING CONTRACTOR AVAILABLE FEES


                        TABLE OF CONTENTS

                                                         Page



SUMMARY............................................          1

PART I - APPROACH AND OVERVIEW.....................          3

Introduction.......................................          3

Scope and Methodology..............................          3

Background..........................................         4

Observations and Conclusions........................         5

PART II-    FINDING AND RECOMMENDATION................       7

Management and Operating Contractor Available Fees..         7

PART III - MANAGEMENT AND AUDITOR COMMENTS..........        13

PART IV - APPENDICES................................        15

I. Management Comments on the Draft Report..........        15

II. Departmental Fee Schedule for Research and
    Development Efforts.............................   17

III. Effect of the Proposed Change on Contractor
     Available Fees.................................   18
                 U. S. DEPARTMENT OF ENERGY
                 OFFICE OF INSPECTOR GENERAL
                  OFFICE OF AUDIT SERVICES

                AUDIT OF DEPARTMENT OF ENERGY
     MANAGEMENT AND OPERATING CONTRACTOR AVAILABLE FEES


Audit Report Number:   DOE/IG-0390

                            SUMMARY


   The Department of Energy's management and operating
contractors operate facilities designed to perform research
and development, special production, or testing for the
Federal Government. As of March 1, 1995, 32 of the 47
management and operating contracts were either cost-plus-
fixed-fee or cost-plus-award-fee contracts. In Fiscal Year
1995, available fees (i.e., the maximum fees that can be
paid to contractors) for the 32 contracts totaled $438
million. The remaining 15 contracts were awarded to non-
profit educational or other institutions, which were not
part of this review.

   In December 1995, the Department proposed to modify its
Acquisition Regulation to improve contractor performance and
make contractors more accountable for their actions. The
proposed modification was in response to recommendations
made by the Department's Contract Reform Team in 1994. The
proposed revisions, drafted by the Offices of Procurement
and Assistance Management and General Counsel, would
eliminate the avoidable cost provisions that increased
contractor risk under the Accountability Rule, but they
would not eliminate the associated fee increases. The
revisions also would make costs for fines, penalties, third-
party liabilities, and loss of Government property
unallowable unless the contractor proves it was not at
fault. In return, the Department proposed to increase
contractor fees above those already provided through the
Accountability Rule. The objective of the audit was to
determine whether the Department's proposed change to the
fee structure for determining management and operating
contractor fees will be cost effective. While we recognize
that the fee policy was evolving during the period covered
by this audit, our analysis of the proposed revisions
indicated that these actions may substantially increase
contractor available fees for 28 of the 32 contracts,
possibly by as much as $218 million per year. However, the
Department had not developed adequate empirical or
analytical evidence to support anticipated benefits of the
revisions.

   In 1991, the Department, through the Accountability Rule,
increased contractor fees as an incentive to improve
contractor performance and accountability. This action
coincided with the Department's stated objective of shifting
more risk for the operation of its facilities to the
managing contractors. The Office of Inspector General, in
January 1994, issued an audit report on this initiative.
The report concluded that the Department paid five
contractors $23 million in increased fees with no conclusive
evidence that this rule was meeting its objective.

   Despite the absence of measurable benefits from the
Accountability Rule, the Department currently plans to
increase fees above the amount provided through the
Accountability Rule as an incentive to improve management
and operating contractor performance. This proposed
increase in contractor fees could total $218 million per
year. This estimate is based on the maximum fee calculation
for each contract under the proposed revised fee structure.

   Prudent business practice dictates that any initiative
that carries with it such significant increases in cost to
the Department should be analyzed to determine if the
benefits justify the cost. However, the Department's newest
proposed revision to its Acquisition Regulation was not
subjected to a rigorous analysis to determine the costs and
benefits of the proposal. Because of the potential impact
of the proposed revisions, we recommend that the Department
postpone issuance of the proposed revisions to its
Acquisition Regulation until a cost-benefit analysis is
completed, and it can confirm in both quantitative and
qualitative terms that the revisions are cost effective and
will achieve the benefits envisioned by the Department.

   An exit conference was held with the Office of
Procurement and Assistance Management on April 18, 1996, to
discuss the results of the audit. Following this meeting,
the Department elected to transmit the notice of proposed
rulemaking to the Office of Management and Budget without
the fee policy revisions. The Department stated in the
notice that its fee policy for profit making and nonprofit
contractors will be promulgated as a separate proposal.

   Subsequently, on April 30, 1996, the Deputy Assistant
Secretary for Procurement and Assistance Management provided
revised comments on the audit report. In his response, he
set forth a series of objectives that would be followed in
developing the new policy. The response stated that the new
proposal would not be issued until the draft fee policy
objectives were met. Management comments did not
specifically indicate whether a cost-benefit analysis would
be performed.




                                    ______(Signed)_________
                                    Office of Inspector General

                           PART I
                    APPROACH AND OVERVIEW


INTRODUCTION

   The Office of Procurement and Assistance Management has
proposed changes to the method used to annually calculate
and negotiate "for-profit" management and operating
contractor available fees. This proposal will increase
contractor fees in exchange for the contractor's purported
assumption of additional risk. In 1991, the Department,
through the Accountability Rule, increased contractor fees
as an incentive to improve contractor performance and
accountability. Despite the lack of measurable benefits of
this effort, the Department is crafting a new fee policy
which will, depending upon how it is executed, increase fees
above the amount provided through the Accountability Rule as
an incentive to the Department's management and operating
contractors. The objective of the audit was to determine
whether the Department's proposed change to the fee
structure for determining management and operating
contractor fees will be cost effective.

SCOPE AND METHODOLOGY

   The audit included an analysis of proposed revisions to
the Acquisition Regulation, an assessment of whether
management and operating contractor available fees would
increase from Fiscal Year 1995 levels, and the extent to
which the Department assessed the corresponding additional
risk that would be assumed by the Department's contractors.
As of March 1, 1995, 32 of the Department's 47 management
and operating contracts were either cost-plus-fixed-fee or
cost-plus-award-fee contracts. These 32 contractors would
be impacted by the proposed changes to the Acquisition
Regulation. The remaining 15 management and operating contracts
were awarded to non-profit educational (where the Department may
pay a management allowance rather than a fee) or other
institutions under a cost, no fee arrangement. Although
these contractors would also be impacted by the proposed
changes, they were not authorized to earn fees at the time
of our review and, therefore, were not included as a part of
the scope of this audit.

   In performing the review, a comparison of current and
proposed Acquisition Regulation provisions was performed and
discussions were held with Departmental Headquarters
personnel to determine the rationale and process for making
the changes.   Specific discussions were held at
Headquarters with representatives from Procurement's Office
of Policy, the Contract Reform Team, and the Office of
General Counsel.

   An analysis of the proposed revision to the fee structure
was conducted to quantify its impact on management and
operating contractor available fees. Under the current fee
policy, contractors generally used a single fee base for
each of the four applicable categories of work. Using
Fiscal Year 1995 categories of work for 28 of 32 cost-plus
fixed-fee or cost-plus-award-fee contracts, we subdivided
each category into 3 equal amounts as permitted by the
proposed revisions. Information was not available on 4 of
the 32 contracts to determine the potential impact of the
proposed revision on available fees. We then applied the
applicable Departmental fee schedules to the modified fee
bases as provided under the proposed procedures and compared
the results to actual Fiscal Year 1995 fees to determine the
potential effect on contractor available fees under the new
rules.

   An analysis was also conducted to assess the increased
risk that would be assumed by management and operating
contractors under the proposed revision to the Acquisition
Regulation. Inquiries were made with Headquarters and field
personnel to quantify the amount that is currently paid by
the Department or its contractors for fines, penalties,
third-party liabilities, and property liability.

   The audit was performed in accordance with generally
accepted Government auditing standards for performance
audits, which included tests of internal controls and
compliance with laws and regulations to the extent necessary
to satisfy the objective of the audit. We assessed the
significant internal controls with respect to the compliance
with Parts 915 and 970 of the Department of Energy
Acquisition Regulation. We placed only limited reliance on
computer-generated data during this audit and, thus, did not
test the reliability of the data. Because our review of
internal controls was limited, it would not necessarily have
disclosed all internal control and compliance deficiencies
that may have existed.

   Audit work was conducted at Department Headquarters and
at selected Departmental field offices. An exit conference
was held on April 18, 1996.

BACKGROUND

   The Department of Energy's management and operating
contractors operate facilities designed to perform research
and development, special production, or testing for the
Federal Government. For 28 of the Department's contracts
for which information was available, Fiscal Year 1995
available fees (i.e., the maximum fees that can be paid)
totaled approximately $412 million.

   Since 1991, fees for the Department's management and
operating contractors have increased significantly. As
shown in Table 1, fees available to Lockheed Martin Energy
Systems and Westinghouse Savannah River Company (two of the
Department's largest contractors) increased from $58.9
million in 1991 to $126.1 million in 1995.
                           Table 1

        Available Fees For Two Departmental Contracts
                        (in millions)

                          Fiscal Year 1991     Fiscal Year 1995
Contractor                Available Fees       Available Fees

Lockheed Martin Energy Systems       $26.3               $76.1
Westinghouse Savannah River Co.      $32.6               $50.0

   Totals                            $58.9              $126.1


   The increase can be attributed to two key factors: (1)
the 1991 implementation of the Accountability Rule and (2) a
decision by the Department since 1991 to deviate from
standard fee determination schedules for certain contractors
by allowing their fees to be calculated on smaller, more
numerous fee bases. The Department intended, in both
instances, to increase fees to compensate contractors for
greater financial risk.

   In published reports, the Office of Inspector General and
the Contract Reform Team concluded that the Department of
Energy had not received measurable benefits as a result of
these initiatives. The Office of Inspector General reported
that after 18 months under the Accountability Rule and an
increase of $23 million in contractor fees, there was no
conclusive evidence that the Department was achieving its
objective. The Contract Reform Team also found that, "In
application, the Accountability Rule appears to have had
little measurable impact on contractor accountability or
performance. At the same time, it has resulted in a
significant cost increase to the Department." Another
report by the Office of Inspector General in August 1995
concluded that deviations from the required fee
determination schedules increased Westinghouse Savannah
River Company's fees by about $60 million over a 5-year
period (April 1989 through March 1994) without the
Department receiving a corresponding increase in contractor
performance.

OBSERVATIONS AND CONCLUSIONS

   In 1995, the Department undertook an initiative to modify
its Acquisition Regulation in response to its Departmental
Contract Reform Team's objective that contract operations
should "work better and cost less." The Department's
objective was to improve contractor performance and make
contractors more accountable for their actions. The
proposed revisions, drafted by the Offices of Procurement
and Assistance Management and General Counsel, eliminated
the avoidable cost provisions that increased contractor risk
under the Accountability Rule but did not eliminate the
associated fee increases. Also, fines, penalties, third-
party liabilities, and loss of Government property, under
the latest proposed revisions, would be unallowable unless
the contractor proves, it was not at fault. In return for
the new risks assumed by the contractor, the Department
proposed to increase contractor fees above those already
provided through the Accountability Rule.

   The Department's approach was based on the establishment
of contract performance areas within each category of work.
Using this new approach, contractor fee bases can be
increased from 4 to 12. An analysis of the change, however,
indicates that the Department's actions will substantially
increase contractor fees. This initiative was undertaken
even though the Department had not developed an empirical
basis for concluding that the anticipated benefits of the
revision would be realized.

   Prudent business practice dictates that any change that
increases costs to the Department should be analyzed to
determine if the benefits justify the cost. However, the
Department, in this case, proposed revisions to its
Acquisition Regulation that could significantly increase
contractors' available fees without performing an analysis
of the costs and benefits of the proposed revision.
Departmental officials informed us that data essential for
such an analysis was neither accumulated nor requested from
Departmental field offices. Headquarters Procurement did
not begin to collect detailed fee calculation information
until October 1995--after drafting the initial revisions to
the Acquisition Regulation.

   The estimated impact of the proposed revision would allow
management and operating contractors to subdivide their
budgets into smaller, more numerous fee bases--generally up
to 12 fee bases. The practical impact would be to increase
the total available fee pools to the 28 contractors by as
much as $218 million per year. Because of the potential
impact, the Department should delay issuing the proposed
revisions to its Acquisition Regulation until a thorough
cost-benefit analysis is completed, and it can confirm in
both quantitative and qualitative terms that the revisions
are cost effective and will achieve the benefits envisioned
by the Department. The absence of a cost-benefit analysis
should be considered when identifying material internal
control weaknesses as part of the yearend assurance
memorandum on internal controls.

   We discussed this report with officials from the Office
of Procurement and Assistance Management on April 18, 1996.
Following the meeting, the Department elected to transmit
the notice of proposed rulemaking to the Office of
Management and Budget without the fee policy revisions.

                           PART II

                 FINDING AND RECOMMENDATION
     Management and Operating Contractor Available Fees

FINDING

   It is the Department of Energy's policy that contractors
bear an equitable share of contract cost risk and that they
be compensated for assuming that risk. However, the
Department, during Fiscal Year 1996, proposed changes to its
Acquisition Regulation that may increase available
management and operating contractor fees by as much as
$218 million per year without demonstrating (1) a
commensurate increase in risk assumed by the contractors or
(2) other quantitative or qualitative benefits that render
the proposal in the best interest of the government. The
revisions to the Acquisition Regulation were proposed
without performing a cost-benefit analysis. Without such an
analysis, the Department cannot ensure that the revisions to
the Acquisition Regulation are cost effective and that they
achieve the long-term contract reform goals of the
Department.

RECOMMENDATION

   We recommend that the Deputy Assistant Secretary for
Procurement and Assistance Management:

     Postpone issuance of the proposed revisions to its
     Acquisition Regulation until a thorough cost-
     benefit analysis is completed, and it can confirm
     in both quantitative and qualitative terms that
     the revisions are cost effective and will achieve
     the benefits envisioned by the Department.

MANAGEMENT REACTION

   In responding to the draft report on April 30, 1996, the
Deputy Assistant Secretary for Procurement and Assistance
Management stated that the Department's fee policy was
evolving, and he set forth a series of objectives that would
govern the development of this policy. The response
indicated that the new proposal would not be issued until
the draft fee policy objectives were met. Management
comments did not specifically address whether a cost-benefit
analysis would be performed. Detailed management and
auditor comments are included in Part III, and verbatim
management comments are included in Appendix I of this
report.

                      DETAILS OF FINDING


CONTRACTOR COST RISK AND COMPENSATION REQUIREMENTS

   The Department of Energy's Acquisition Regulation
requires that contractors assume an equitable share of the
contract cost risk and that they be compensated for the
assumption of that risk. The Acquisition Regulation also
requires contracting officials to make a determination of
the degree of cost responsibility assumed by the contractor
when profit/fee allowances are based on contractor
assumption of risk. The Acquisition Regulation further
states that the negotiating official, in developing a pre-
negotiation fee objective, consider the type of contract to
be negotiated and the anticipated contractor cost risk.

AVAILABLE FEE REVISIONS

   In December 1995, the Office of Procurement and
Assistance Management proposed changes to the method used to
annually calculate and negotiate "for-profit" management and
operating contractor available fees. The changes were
drafted in response to the Department's 1994 Contract Reform
Team's overall conclusion that contracting should "work
better and cost less." According to Headquarters
Procurement officials, the principal objectives of the
proposed revisions are to establish requirements similar to
those contained in the Federal Acquisition Regulation, use
performance-based contracting methods, and add discipline to
the fee negotiation process. The Department's objectives in
taking this action were further clarified in an April 30,
1996, memorandum provided in response to an earlier draft of
this report. The April 30 memorandum is included in this
report at Appendix I.

   The revisions proposed by Procurement and the Office of
General Counsel would eliminate provisions of the
Accountability Rule and restructure the Department's fee
determination process by establishing contract performance
areas within categories of work. The December 1995 proposal
allowed management and operating contractor fees to be
calculated on 16 rather than 4 fee bases. However, the
Department subsequently reduced the number of fee bases
contractors would be permitted to use to 12 by eliminating a
contract performance area. The revisions would also retain
the current fee schedules and the 100 percent increase in
fees for assuming additional risk established by the
Accountability Rule.

Increased Available Fees

   The fee policy revision to the Acquisition Regulation
could result in as much as a $218 million increase in
available contractor fees per year for 28 "for-profit"
management and operating contractors. The $218 million
increase in available fees represents the maximum fee
calculation for each contract under the proposed revised fee
structure, which was based on our application of the
proposed fee structure to Fiscal Year 1995 information used
by the Department to calculate available contractor fees.
Using Fiscal Year 1995 fee bases and applicable "for-profit"
management and operating contractors award fee percentages,
we estimated that available fees for the 28 contractors
could approximate $630 million per year under the proposal.
The difference between our estimate of the impact of the new
proposal and Fiscal Year 1995 available contractor fees
($630 million and $412 million, respectively) represents the
potential increase in available fees (see Appendix III).

   Currently, management and operating contractor available
fees are based on four categories of work:
production/manufacturing, research & development,
construction/construction management, and special
equipment/subcontracting. The proposed revision will allow
each contractor to increase the number of fee bases by
allowing three performance areas to be subdivided by the
four categories of work. Table 2 illustrates the further
subdivision of the fee bases permitted by the proposed fee
policy revision to the Acquisition Regulation.

                            Table 2

                 Number Of Possible Fee Bases

Categories           1.               2.    3.             4.
of work:             Production       R&D   Construction   Special Equipment

Performance
Areas:

1.   Basic Mission    X           X           X             X
2.   Construction     X           X           X             X
3.   Enivronmental    X           X           X             X


   For cost-reimbursement contractors, the Department
established standards for the maximum allowable fee for each
fee base. These standards, in the form of "fee schedules,"
are structured to be regressive in nature--as the dollar
amount of the contract cost base increases, the allowable
fee percentage decreases. An example of an actual fee
schedule is provided at Appendix II. As noted in the
example, a $25,000 base for research and development
activities permits contractors to earn a maximum fee of 10
percent; while a $25 million base permits contractors to
earn a maximum fee of 5.27 percent. When large contractor
efforts are divided into smaller bases, fees are calculated
separately for each of the bases using the higher fee
percentage. In such situations, the aggregated fees for the
smaller bases exceed the single maximum contractor fee,
which would have been available had the effort not been
subdivided. Thus, although the overall work product may be
the same, the contractor receives substantially higher fees
in this scenario. This essentially reflects the effect of
the fee proposal currently under consideration by the
Department.

   The effect of subdividing larger fee bases into smaller
more numerous fee bases can be further illustrated by the
following actual examples. For Fiscal Year 1995, the Oak
Ridge Operations Office permitted Martin Marietta Energy
Systems (now Lockheed Martin Energy Systems) to separate
total cost estimates into fee bases for each of its three
business entities--Laboratory Business Unit, Weapons
Business Unit, and Environmental Restoration and Waste
Management Business Unit. Thus, Energy Systems' fee
structure was calculated on 12 rather than the usual 4
bases. This action had a dramatic effect on the overall
total available fee because the fee schedules used by the
Department are regressive (i.e., fee percentages increase
when the dollar amount of a fee base decreases). By
segregating costs into additional fee bases, Martin Marietta
Energy Systems' available fees, in Fiscal Year 1995, were
$29.5 million higher than they would have been if four fee
bases were used to calculate available fees.

   A similar effect was illustrated in a 1995 Office of
Inspector General report concerning the Westinghouse
Savannah River Company contract. According to the report,
Westinghouse received a $5.2 million fee for the first 6
months of their contract in Fiscal Year 1989 and received
$17.3 million for the 6-month period ending March 1994.
This increased fee was due in part to the Department's
Savannah River Operations Office allowing the contractor to
increasingly subdivide its fee bases from two in Fiscal Year
1989 to eight smaller dollar value fee bases in Fiscal Year
1994. This subdivision allowed the contractor to apply
larger fee percentages to the eight smaller fee bases.

   The fee policy proposed by the Department which may, by
application, substantially increase contractor fees
represents a significant change in approach. In 1991, the
Department increased the amount of available fee contractors
could earn by 100 percent and introduced avoidable cost provisions
under the Accountability Rule. The Department's current proposal
retains the 100 percent increase for risk associated with
the Accountability Rule, but eliminates the previously
implemented avoidable cost provisions. Therefore,
contractors under the current proposal may have the
opportunity for greater available fees without a
commensurate increase in risk.

Contractor Risk

   The Contract Reform Team's recommended actions and
Procurement's proposed revisions are designed to hold
contractors more accountable for fines, penalties, third-
party liabilities, and loss to Government property. These
revisions (1) shift the burden of proof for the allowability
of costs related to fines, penalties, etc. from the
Government to the contractor and (2) eliminate the
contractor's fee as the maximum liability ceiling. However,
a Headquarters Procurement representative told us that, in
his opinion, shifting the burden of proof or eliminating
ceilings did not materially increase contractor risk. Also,
the Department could not quantify the cost risk associated
with the proposed changes because it did not specifically
track items such as fines and penalties. Historically,
these costs were paid as operating costs and were not
separately identified.

COST-BENEFIT ANALYSIS

   A cost-benefit analysis involves a determination of the
costs needed to implement a change and the measurable
monetary and other benefits envisioned as a result of the
change. While a cost-benefit analysis of potential
increases in fee is not specifically required by the
Departmental Acquisition Regulation, prudent business
practice dictates that any change, which increases cost,
should be analyzed to determine if the benefits justify the
cost. A cost-benefit analysis of increased available
management and operating contractor fees should have
contrasted the estimated increase in available contractor
fees to the expected benefits that would result from the
contractor's assumption of additional risk.

   Although our analysis of the proposed fee structure shows
that contractor available fees may increase substantially,
discussions with management indicated that only limited work
had been done to quantify the risk or the increase in
available fees. In our judgment, prudent business practice
dictates that a much broader study be conducted to determine
if the benefits justify any increase in available fees.
Further, Contract Reform Team and Procurement officials
acknowledged that the Department did not have analytical
data to demonstrate whether the revisions will be an
effective means for making contractors more accountable and
improving performance. They indicated that as a practical
matter it could take up to 3 to 4 years to determine if the
revisions achieved their objective. However, once the new
fee policy is in effect and its terms have been incorporated
into multi-year management and operating contracts, it may
be extremely difficult, if not impossible, to substantially
modify the terms of these contracts in the future even
though the Department may not be benefiting from the
proposed changes.

   The Department needs to accumulate detailed information
from Departmental field offices that shows how available
contractor fees would be impacted by the revised fee
structure and the extent to which Departmental costs for
fines, penalties, third-party liabilities, and property loss
and damage would be reduced prior to promulgation of the new
rule. Such information would be one important factor in
enabling the Department to assess whether the increase in
available contractor fees is commensurate with contractor
risk. In October 1995, Headquarters Procurement requested
Departmental field offices to provide a calculation of
available contractor fees under the proposed fee structure
for each contractor by November 1995 in order to assess the
impact of the revised structure on contractor fees. A
Headquarters Procurement official told us that this
information was requested as part of their ongoing effort to
track and analyze contractor fees and not as part of the
rulemaking effort. However, this data would be a beneficial
starting point for initiating a cost-benefit analysis.

   This is not the first time the Department increased fees
without analyzing the cost and benefits of their proposed
change. A similar situation occurred with the
implementation of the Accountability Rule. The Office of
Inspector General found that no cost-benefit analysis was
performed prior to its implementation in 1991. We noted
that a cost-benefit analysis was initiated subsequent to our
1992 audit, however, it was never completed. Subsequent to
the implementation of the Accountability Rule, the
Department concluded that the Rule, despite its worthwhile
objectives, was ineffective and inefficient. We believe
that the shortcomings of the Accountability Rule might have
become apparent if it had been subjected to a cost-benefit
analysis prior to implementation.

REVISIONS MAY NOT BE COST EFFECTIVE

   Without performing a cost-benefit analysis of the
proposed changes to determine their impact on available
contractor fees and cost risk, the Department cannot ensure
that the rulemaking effort will be cost effective and
achieve the benefits envisioned by the Department. Without
an analysis of the costs and benefits of the proposal, the
Department could pay additional fees that exceed the
contractor's cost risk. Our analysis indicated that
available fees may increase by as much as $218 million.
Therefore, the Department should postpone issuance of the
proposed rulemaking until a cost-benefit analysis is
completed.

   An exit conference was held with the Office of
Procurement and Assistance Management on April 18, 1996, to
discuss the results of the audit. Following this meeting,
the Department elected to transmit the notice of proposed
rulemaking to the Office of Management and Budget without
the fee policy revisions. The Department stated in the
notice that its fee policy for profit making and nonprofit
contractors will be promulgated as a separate proposal.

                          PART III

               MANAGEMENT AND AUDITOR COMMENTS

   On April 30, 1996, the Deputy Assistant Secretary for
Procurement and Assistance Management provided revised
comments on the audit report. In his response, he set forth
a series of objectives that would be followed in developing
the new policy. The response indicated that the new
proposal would not be issued until the draft fee policy
objectives were met. Management comments did not
specifically address whether a cost-benefit analysis would
be performed. A summary of management and auditor comments
follow. Appendix I contains verbatim management comments on
the report.
Recommendation

   We recommend that the Deputy Assistant Secretary for
Procurement and Assistance Management postpone issuance of
the proposed revisions to its Acquisition Regulation until a
thorough cost-benefit analysis is completed, and it can
confirm in both quantitative and qualitative terms that the
revisions are cost effective and will achieve the benefits
envisioned by the Department.

   Management Comments. Management indicated that the
evolving nature of the fee policy makes it difficult to
provide meaningful comments on the report and stated that
the report is based on an outdated version of the draft fee
policy. Consequently, managementms response focused on the
objectives and goal of the evolving fee policy.   As shown
in managementms verbatim comments in Appendix I, management
listed the key objectives of the fee policy and indicated
that the policy, as it finally evolves, is intended to
provide a rational and workable approach to determining
reasonable profits and fees under performance-based
contracts.    Management also indicated that the draft fee
policy would not proceed to rulemaking until the Department
is satisfied that the policy meets the Departmentms key
objectives.

   Auditor Comments. The audit report is based on a March
4, 1996, draft of the Department's fee policy. This version
was the latest proposal provided to the auditors, and it was
the subject of an extensive discussion with representatives
of the Office of Procurement and Assistance Management on
April 18, 1996. We recognize that the Department's fee
proposal is in a draft stage and is subject to change.
However, a review of earlier versions of this policy (August
24 and December 27, 1995) and follow-up discussions with
Procurement officials indicated that the Department foresaw
the need to increase fees commensurate with the perceived
increase in contractor risk.

   The decision not to forward the draft policy to the
Office of Management and Budget and to perform a thorough
assessment of the policy is laudable. In conducting this
assessment, the most important point to note is that any
proposal that potentially increases management and operating
contractor fees should be subject to a comprehensive cost-
benefit analysis. The performance of this analysis would
permit the Department to determine whether the proposal is
consistent with the Department's stated fee policy
objectives. A cost-benefit analysis would also assist the
Department in making contracting "work better and cost less"
and potentially prevent a recurrence of the type of problems
that were associated with implementation of the
Accountability Rule.

                                                   APPENDIX I

                 Original signed by Richard Hopf
                       Dated:   April 30, 1996

MEMORANDUM FOR:         MANAGER, CAPITAL REGIONAL AUDIT OFFICE
                        OFFICE OF THE INSPECTOR GENERAL

FROM:                   RICHARD HOPF
                        DEPUTY ASSISTANT SECRETARY FOR
                        PROCUREMENT AND ASSISTANCE MANAGEMENT

SUBJECT:                DRAFT REPORT ON lDEPARTMENT OF ENERGY
                        MANAGEMENT AND OPERATING CONTRACTOR
                        AVAILABLE FEESn


I appreciated the opportunity to meet with you on Thursday,
April 18, 1996, regarding your final draft report entitled
lAudit of Department of Energy (DOE) Management and
Operating (M&O) Contractor Available Fees.n The discussion
was helpful in my gaining an understanding of your
perspective. In addition, it was useful in communicating my
perspectives on fee policy, including our objectives in
revising the current policy.

As you are aware, the draft fee policy that served as a
basis for your audit is not the current and final thinking
on the issue. Since your review of that early version of
the draft policy, we have further assessed the issues
identified in your report, as well as comments and concerns
raised by both Headquarters and field staff regarding the
draft fee policy. We have been working closely with our
stakeholders to ensure that the Department's fee policy, as
it finally evolves, represents a rational and workable
approach to determining reasonable profits and fees under
performance-based management contracts. Because of the
evolving nature of the fee policy, it is exceedingly
difficult to meaningfully engage in a typical audit/response
cycle where the basic policy is in a state of flux.
Therefore, rather than respond to the criticisms and issues
raised in your report regarding that outdated version of the
draft policy, I would like to share with you the key
objectives of our efforts to construct a fee policy. These
objectives include providing:

        *   a fee structure that facilitates the application of
              performance-based management concepts to our M&O contracts
              and similar contracts, including flexibility in structuring
              incentives that motivate contractors to excellence and
              penalize them for failures;

        *   for the payment of fee based on results, not merely for
              costs incurred;

        *   reasonable fees commensurate with the performance,
              business, and cost risks that will be assumed by the
              contractor in performance of the contract;

        *   a fee structure that attracts the best business partners
            in the management and operation of the Department's
            facilities and sites;

     *   for the application of the policy to nonprofit and
           educational organizations;

     *   for consistency between future total available fee
           amounts and the range of fee amounts which have been
           available and earned in the past;

     *   for consistency in the amounts of profit and fee paid
           across the complex for similar types of work; and,

     *   appropriate checks and balances to ensure consistent and
           proper application of the fee policy.

In the meeting, you stated that the implementation of the
fee policy which you had reviewed could result in an
increase in future fees paid to our M&O contractors. It was
suggested that the vagaries of the application of that early
draft of the fee policy supported that observation.
However, I believe that the final regulations will provide
sufficient direction and the necessary checks and balances
to limit local discretion in the award of fees that are
inconsistent with the policy. We are none-the-less
appreciative of your concerns and will keep in mind your
perspective as we develop future iterations of the fee
policy.

You also expressed concern that the draft policy would be
released without a thorough assessment of whether the policy
would met the Departmentms objectives. Please be assured
that we will not release the draft fee policy to rulemaking
until we are satisfied that the draft fee policy meets these
objectives. As that effort progresses, we look forward to
sharing the evolving policy with you, and we will work with
your staff to address your concerns and suggestions.

You suggested that a cost-benefit analysis be performed to
determine the impact of the proposed changes to the current
fee policy. In this regard, I would very much appreciate
your ideas regarding how such a cost-benefit analysis could
be designed, so as to meet our mutual needs. However, it
must realistically identify and measure the

consequences of implementing the fee policy. It must be
clear regarding what is to be measured, how it is measured,
the bounds on the analysis and the success indices to be
applied.

I believe   we share the same objectives regarding an
effective   fee policy for the Departmentms M&O contracts, and
I am very   interested in working with your office to ensure
that they   are achieved.

                                                   APPENDIX II
                  DEPARTMENTAL FEE SCHEDULE
            FOR RESEARCH AND DEVELOPMENT EFFORTS


              Fee Base         Fee       Fee
             (dollars)      (dollars) (percent)*
                  25,000         2,500  10.00
                  50,000         5,000  10.00
                 100,000        10,000  10.00
                 200,000        18,000   9.00
                 400,000        34,000   8.50
                 600,000        49,000   8.17
                 800,000        63,000   7.88
               1,000,000        77,000   7.70
               3,000,000       205,000   6.83
               5,000,000       330,000   6.60
              10,000,000       614,000   6.14
              15,000,000       875,000   5.83
              25,000,000     1,318,000   5.27
              40,000,000     1,897,000   4.74
              60,000,000     2,572,000   4.29
              80,000,000     3,170,000   3.96
             100,000,000     3,662,000   3.66
             150,000,000     4,434,000   2.96
             200,000,000     4,955,000   2.48
             300,000,000     5,561,000   1.85
             400,000,000     6,095,000   1.52
             500,000,000     6,556,000   1.31
       Over $500 million     6,556,000    **

*The schedule also contains an incremental fee percent for dollar amounts
that fall between those shown in the fee base column. The incremental
fee percentages also decrease when the fee base increases.

**The incremental fee is 0.46 percent of the fee base amount over
$500 million.

                                                              APPENDIX III

                Effect of the Proposed Change on Contractor Available Fees

                                                         Projected
                         Actual         Projected        Increase
                         1995           Fee Per          Due to
         Total           Available      Proposed         Proposed
         Budget          Fee            Rule             Rule


 1 Oak Ridge            Lockheed Martin Energy
   Operations           Systems

 $1,948,370,000         $76,131,000   $106,928,915     $30,797,915

 2 Savannah River       Westinghouse Savannah
   Operations           River Company

  1,700,104,000          50,000,000     81,341,332      31,341,332
 3 Albuquerque          Sandia Corporation
   Operations

  1,538,298,000          14,532,000        25,373,560   10,841,560

 4 Richland             Westinghouse Hanford
   Operations           Company

  1,381,657,000          41,000,000        66,374,367   25,374,367

  5 Rocky Flats Field    EG&G Rocky Flats Inc.

    901,755,000          23,500,000        39,926,877   16,426,877

 6 Idaho Operations     Lockheed Idaho
                        Technologies Company

    808,949,000           42,153,011       76,313,768   34,160,757

 7 Richland             Battelle Memorial
   Operations           Institute

    582,500,000           12,300,000       19,127,720    6,827,720

 8 Albuquerque          Allied-Signal Inc.
   Operations

    395,571,000           22,882,500       32,486,824    9,604,324

 9 Pittsburgh Naval     Westinghouse Electric
   Reactors             Corporation

    344,251,000            9,020,914       13,242,145    4,221,231

10 Nevada Operations    Reynolds Electrical &
                        Engineering Co., Inc.

    323,334,000           14,530,100       19,440,718    4,910,618

11 Albuquerque          Mason & Hanger - Silas
   Operations           Mason Co., Inc.

    304,250,000           16,590,000       26,094,845    9,504,845

12 Schenectady Naval    Lockheed Martin
   Reactors             Corporation - KAPL, Inc.

    292,162,000            7,833,000       11,254,710    3,421,710

13 Golden Field         Midwest Research
                        Institute

    220,793,000            7,580,000       12,679,897    5,099,897

14 Headquarters         TRW Environmental Safety
   Procurement          Systems, Inc.
    209,943,000           9,234,400    15,047,598      5,813,198

15 Nevada Operations   EG&G/Energy
                       Measurements, Inc.

    184,098,000*         11,750,000*   15,355,666      3,605,666

16 Strategic           DynMcDermott Petroleum
   Petroleum Reserve   Operations Co.

    182,817,048           6,755,000        9,179,954   2,424,954

17 Headquarters        Bechtel Petroleum
   Procurement         Operations, Inc.

    146,800,000           5,800,000        8,408,440   2,608,440

18 Oak Ridge           MK-Ferguson of Oak Ridge
   Operations          Company

    142,733,000           4,849,700        5,993,552   1,143,852

19 Ohio Field          EG&G Mound Applied
                       Technologies, Inc.
    133,835,000          11,740,000    15,220,385      3,480,385

20 Ohio Field          West Valley Nuclear
                       Services Co., Inc.

    129,620,000              -                 -          **

21 Nevada Operations   Raytheon Services Nevada

    122,773,868              -                 -          **

22 Albuquerque         Lockheed Martin
   Operations          Specialty Components, Inc.

     86,500,000           7,262,500    9,199,313       1,936,813

23 Albuquerque         Westinghouse Electric
   Operations          Corporation

     73,800,000              -                 -          **

24 Savannah River      Wackenhut Services, Inc.
   Operations

     67,470,364           4,120,000    5,397,347       1,277,347

25 Idaho Operations    Lockheed Idaho
                       Technologies Company

     40,969,000           3,220,875    4,158,418         937,543

26 Rocky Flats Field   Wackenhut Services, Inc.
     38,483,500           2,529,772     3,295,867          766,095

27 Pittsburgh Energy   BDM-Oklahoma, Inc.
   Tech. Ctr.

     38,139,779           2,863,990     3,530,730          666,740

28 Oakland Operations Rockwell International
                      Corporation

     25,551,120              -               -              **

29 Headquarters        Fluor Daniel (NPOSR),
   Procurement         Inc.

     20,235,000           1,440,000     1,826,118          386,118

30 Richland            Hanford Environmental
   Operations          Health Foundation

     19,602,132             440,000         553,439        113,439

31 Albuquerque         Ross Aviation, Inc.
   Operations

     18,597,566             800,000         908,256        108,256

32 Nevada Operations   Wackenhut Services, Inc.

     18,500,000           1,365,000     1,734,083          369,083



TOTALS
$12,442,462,377        $412,223,762 $630,394,844      $218,171,082


(*) Information Calendar Year 1994
(**) Information was not available to
     make comparison



                  IG Report No.   DOE/IG-0390




                   CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing
interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible
to our customers' requirements, and therefore ask that
you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please
include answers to the following questions if they are
applicable to you:

     1.   What additional background information
          about the selection, scheduling, scope,
          or procedures of the audit or inspection
          would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to
          findings and recommendations could have
          been included in this report to assist
          management in implementing corrective
          actions?

     3.   What format, stylistic, or organizational
          changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of
          Inspector General have taken on the issues
          discussed in this report which would have
          been helpful?

Please include your name and telephone number so that
we may contact you should we have any questions about
your comments.

Name ____________________________
Date_____________________

Telephone _______________________
Organization_____________

When you have completed this form, you may telefax it
to the Office of Inspector General at (202) 586-0948,
or you may mail it to:

     Office of Inspector General (IG-1)
     U.S. Department of Energy
     Washington, D.C. 20585
     ATTN: Customer Relations

If you wish to discuss this report or your comments
with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
